     DEPARTMENT OF HEALTH AND HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL


                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303
August 16, 2011

Report Number: A-04-10-00068

Ms. Sandra Miller
Senior Vice President and President, Federal Government Solutions
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Blue Cross and Blue Shield of Georgia, Inc.’s
Medicare Final Administrative Cost Proposals for the Period October 1, 2006, Through May 4,
2009. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-10-00068 in all correspondence.

                                             Sincerely,



                                             /John T. Drake, Sr./
                                             Acting Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandra Miller


cc:

Mr. Todd W. Reiger
Chief Financial Officer, Medicare Operations
National Government Services, Inc.
6775 West Washington Street
Milwaukee, WI 53214

Direct Reply to HHS Action Official:

Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health and Human Services
              OFFICE OF 

         INSPECTOR GENERAL 





 REVIEW OF BLUE CROSS AND BLUE 

SHIELD OF GEORGIA, INC.’S MEDICARE
    FINAL ADMINISTRATIVE COST
    PROPOSALS FOR THE PERIOD
    OCTOBER 1, 2006, THROUGH
           MAY 4, 2009 





                         Daniel R. Levinson

                          Inspector General 


                            August 2011 

                           A-04-10-00068 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). Medicare Part A provides coverage
for inpatient hospital care, post-hospital extended care, and post-hospital home health care. The
Centers for Medicare & Medicaid Services (CMS) administers the Medicare program by
contracting with private organizations to process and pay claims for services provided to eligible
beneficiaries.

During the period October 1, 2006, through May 4, 2009, CMS contracted with Blue Cross and
Blue Shield of Georgia, Inc. (BCBSGA) to serve as the Part A fiscal intermediary responsible for
Georgia. BCBSGA’s Part A contract with CMS provided for reimbursement of allowable
administrative costs incurred. Such administrative costs include the direct costs of administering
the contract as well as allocations of certain indirect costs of services or assets used by Medicare
and other entities. For October 1, 2006, through May 4, 2009, BCBSGA claimed administrative
costs totaling $24,727,672 in reimbursement for direct and indirect costs related to its Part A
contract.

OBJECTIVE

Our objective was to determine whether the administrative costs claimed on BCBSGA’s
Medicare Final Administrative Cost Proposals (FACP) for October 1, 2006, through May 4,
2009, were allowable for Medicare reimbursement.

SUMMARY OF FINDINGS

Most of the administrative costs claimed on BCBSGA’s Medicare FACPs for October 1, 2006,
through May 4, 2009, were allowable for Medicare reimbursement. Of the $24,727,672 in
administrative costs reviewed, $24,325,053 was allowable for Medicare reimbursement under
the Part A contract. However, the remaining $402,619 was not. Of this amount, $245,056 was
unallowable for Medicare reimbursement because BCBSGA did not have adequate policies and
procedures to ensure that these costs were adequately supported and allocated to the Medicare
Part A contract in compliance with applicable Federal regulations and CMS guidance. We set
aside the remaining $157,563 for CMS adjudication because it consisted of termination costs,
which, under CMS guidance, should have been claimed on BCBSGA’s termination cost
vouchers.




                                                 i
RECOMMENDATIONS

We recommend that BCBSGA:

   	 reduce direct costs claimed on its FACPs by $245,056,

   	 work with CMS to resolve $157,563 in termination costs incorrectly included in its 2009
      FACP, and

   	 strengthen its policies and procedures for maintaining documentation to support costs
      included on its FACPs.

BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC. COMMENTS

In comments on our draft report, BCBSGA agreed with most of our findings, except for those
related to the unapproved bonus payment and the understated reductions to fringe benefit costs.
BCBSGA stated that the bonus payment was made in good faith to the individual who oversaw
the Medicare operations at BCBSGA and that this individual was instrumental in sustaining
performance during the Medicare administrative contractor’s transition and winding up
operations. With regard to the reductions to fringe benefit costs, BCBSGA stated that the
proposed adjustment removes post retirement costs as determined through generally accepted
accounting principles and that actual paid claims had been incurred, which have not been
factored into the proposed adjustment. BCBSGA stated that it would pursue reimbursement for
both findings with CMS.

BCBSGA’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the basis of the unapproved bonus paid to one employee was not allowable
under the Part A contract in accordance with 48 CFR § 31.205-6(f). Furthermore, we maintain
that BCBSGA did not obtain CMS’s prior written approval for this bonus payment, as required
by Exhibit 3, section 1.2, entitled Retention Bonuses of the Carrier/Intermediary Workload
Closeout Handbook.

With regard to the reductions to fringe benefit costs, BCBSGA did not provide with its
comments on the draft report additional documentation supporting that it had paid post
retirement costs. Therefore, we could not determine whether the post retirement costs in
question had been incurred, and we maintain that these costs were not allocable to Medicare.




                                               ii
                                                  TABLE OF CONTENTS


                                                                                                                                    Page

INTRODUCTION ...................................................................................................................... 1


          BACKGROUND .............................................................................................................. 1          

              Medicare Program ................................................................................................ 1 

              Blue Cross and Blue Shield of Georgia, Inc. Medicare Contract ......................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................                                  1

               Objective...............................................................................................................   1    

               Scope ..................................................................................................................   1    

               Methodology.........................................................................................................       2    


FINDINGS AND RECOMMENDATIONS ............................................................................. 3 


          PROGRAM REQUIREMENTS ...................................................................................... 3 

              Federal Regulations .............................................................................................. 3             

              Centers for Medicare & Medicaid Services Guidance ......................................... 4 


          DIRECT COSTS NOT SUPPORTED AS REASONABLE, ALLOCABLE, 

            OR ALLOWABLE .......................................................................................................          5

                Unapproved Bonus Payment ................................................................................                 5

                Unsupported Salaries ............................................................................................         5    

                Unallowable Impact Award Payment ...................................................................                      5

                Unallowable Annual Incentive Program Reward Payments ................................                                     6

                Understated Reductions to Fringe Benefit Costs ..................................................                         6

               Termination Costs ................................................................................................         6    


          INADEQUATE POLICIES AND PROCEDURES ......................................................... 6 


          RECOMMENDATIONS.................................................................................................. 6                  


          BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC. COMMENTS ................... 7 


          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 7 


APPENDIXES

          A: SAMPLING METHODOLOGY

          B: 	BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC.’S MEDICARE PART A
               ADMINISTRATIVE COSTS CLAIMED FOR OCTOBER 1, 2006, THROUGH
               MAY 4, 2009




                                                                    iii
C: 	RESULTS OF REVIEW OF BLUE CROSS AND BLUE SHIELD OF
      GEORGIA, INC.’S MEDICARE PART A ADMINISTRATIVE COSTS
      CLAIMED FOR OCTOBER 1, 2006, THROUGH MAY 4, 2009

D: BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC. COMMENTS




                             iv
                                        INTRODUCTION 


BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). Medicare Part A provides coverage
for inpatient hospital care, post-hospital extended care, and post-hospital home health care. The
Centers for Medicare & Medicaid Services (CMS) administers the Medicare program by
contracting with private organizations to process and pay claims for services provided to eligible
beneficiaries.

Blue Cross and Blue Shield of Georgia, Inc. Medicare Contract

During the period October 1, 2006, through May 4, 2009, CMS contracted with Blue Cross and
Blue Shield of Georgia, Inc. (BCBSGA) to serve as the Part A fiscal intermediary responsible for
Georgia. BCBSGA’s Part A contract with CMS provided for reimbursement of allowable
administrative costs incurred. Such administrative costs include the direct costs of administering
the contract as well as allocations of certain indirect costs of services or assets used by Medicare
and other entities. For October 1, 2006, through May 4, 2009, BCBSGA claimed administrative
costs totaling $24,727,672 in reimbursement for direct and indirect costs related to its Part A
contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs claimed on BCBSGA’s
Medicare Final Administrative Cost Proposals (FACP) for October 1, 2006, through May 4,
2009, were allowable for Medicare reimbursement.

Scope

Our review was limited to $24,727,672 in direct and indirect administrative costs claimed by
BCBSGA on its FACPs submitted to CMS for the period covering October 1, 2006, through
May 4, 2009.

We limited our internal control review to controls related to the recording and reporting of costs
on the FACPs. We accomplished our objective through substantive testing.

We conducted our fieldwork at BCBSGA offices in Atlanta, Georgia.




                                                 1

Methodology

To accomplish our objective, we:

          reviewed applicable Medicare laws, regulations, and guidelines;

          reviewed BCBSGA’s policies, as applicable; 


          reviewed BCBSGA’s contract with CMS; 


          reconciled FACPs from 2007 through 20091 to BCBSGA’s accounting records; 


          interviewed BCBSGA officials about its cost accumulation processes for FACPs and 

           gained an understanding of its cost allocation systems;

          tested direct salaries and wages by selecting a stratified random sample of 105 “employee
           pay periods” (Appendix A) and by:

                o	 tracing the payments to payroll journals and personnel records,

                o	 verifying the amount paid was consistent with the employee’s pay rate,

                o	 verifying hours paid against employee time records, and

                o	 verifying the salary and wages were charged to the proper cost center;2

       	 reviewed direct costs for subcontracts and outside professional services by tracing all
          expense items to supporting documents such as invoices and journal entries;3

       	 reviewed direct costs for temporary employees by judgmentally sampling 30 expense
          items and tracing them to supporting documents such as invoices and reports;4

       	 reviewed direct costs for postage by selecting the largest general ledger account and
          tracing all account expenses to supporting documents such as invoices and reports;5



1
    These FACPs cover the audit period October 1, 2006, through May 4, 2009.

2
    We found no disallowance associated with our sample. 

3
    We selected these direct costs based on the nature of these costs. 

4
    We selected these expenses based on materiality.

5
    We selected these direct costs based on materiality.




                                                              2

       	 calculated the allowable monthly fringe benefit costs by multiplying the allowable 

          monthly employee headcount by the allowable monthly fringe benefit rate; 


       	 reviewed the accuracy of the credits made on the FACPs;

       	 reviewed the accuracy of the reductions to fringe benefit costs for Supplemental
          Executive Retirement Plan (SERP) and Post Retirement Life Benefits (PRB) costs;6

       	 reviewed BCBSGA’s indirect cost allocation methodology; and

       	 tested indirect costs by judgmentally sampling the ten largest indirect cost centers for
          2007 through 2009 and reviewing them for reasonableness and allocability to Medicare.7

See Appendix A for details on our sampling methodology, Appendix B for costs claimed, and
Appendix C for results of review.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                                  FINDINGS AND RECOMMENDATIONS

Most of the administrative costs claimed on BCBSGA’s Medicare FACPs for October 1, 2006,
through May 4, 2009, were allowable for Medicare reimbursement. Of the $24,727,672 in
administrative costs reviewed, $24,325,053 was allowable for Medicare reimbursement under the
Part A contract. However, the remaining $402,619 was not. Of this amount, $245,056 was
unallowable for Medicare reimbursement because BCBSGA did not have adequate policies and
procedures to ensure that these costs were adequately supported and allocated to the Medicare
Part A contract in compliance with applicable Federal regulations and CMS guidance. We set
aside the remaining $157,563 for CMS adjudication because it consisted of termination costs,
which, under CMS guidance, should have been claimed on BCBSGA’s termination cost
vouchers.

PROGRAM REQUIREMENTS

Federal Regulations

The contract between CMS and BCBSGA set forth principles of reimbursement for
administrative costs. The contract cited the Federal Acquisition Regulation (FAR), Title 48, and
Chapter 1 of the CFR, as regulatory principles to be followed for application to the Medicare
contract and provided additional guidelines for specific cost areas.
6
    BCBSGA did not claim pension costs on the FACPs.
7
    We selected these indirect cost centers based on materiality.


                                                             3

Pursuant to FAR 31.201-2(a) (48 CFR § 31.201-2(a)):

(a) A cost is allowable only when the cost complies with all of the following requirements:

           (1) Reasonableness.
           (2) Allocability.
           (3) Standards promulgated by the Cost Accounting Standards Board, if applicable,
               otherwise, generally accepted accounting principles and practices appropriate to the
               circumstances.
           (4) Terms of the contract.

Section 31.201-2(d) of the FAR (48 CFR § 31.201-2(d)) states that BCBSGA is responsible for
“...maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles....”

Pursuant to FAR 31.201-4 (48 CFR § 31.201-4), which establishes guidelines for determining
allocability of contract costs, a cost “is allocable if it is assignable or chargeable to one or more
cost objectives on the basis of relative benefits received or other equitable relationship.”

FAR 31.204(a) (48 CFR § 31.204(a)) states that “[c]osts are allowable to the extent they are
reasonable, allocable, and determined to be allowable....”

Section 31.205-6(f) of the FAR (48 CFR § 31.205-6(f)) states:

           (1) Bonuses and incentive compensation are allowable provided the—
              (i) Awards are paid or accrued under an agreement entered into in good faith between
              the contractor and the employees before the services are rendered or pursuant to an
              established plan or policy followed by the contractor so consistently as to imply, in
              effect, an agreement to make such payment; and
              (ii) Basis for the award is supported.

Centers for Medicare & Medicaid Services Guidance

Chapter 2 section 190.3 of the Medicare Financial Management Manual states that the contractor
must maintain records “...in such detail as will properly reflect all net costs, direct and indirect ...
for which reimbursement is claimed under the provisions of the agreement.”

Chapter 8, section 8-4 of the Carrier/Intermediary Workload Closeout Handbook states:
“…Termination costs are not to be included in the FACP; only vouchers may be used to claim
reimbursement of termination costs.... These vouchers … must provide sufficient detail to
demonstrate that the costs have been incurred and paid. CMS will review the vouchers and make
payments as appropriate.”8



8
    This report refers to vouchers used to claim reimbursement of termination costs as “termination cost vouchers.”


                                                            4

Furthermore, this handbook includes Exhibit 3, section 1.2 entitled Retention Bonuses, which
states, “It is essential that contractors obtain CMS’s prior written approval of any and all potential
commitments that could result in additional charges to the Medicare program. This emphatically
applies to changes in compensation for personal services including the payment of retention
bonuses.”

DIRECT COSTS NOT SUPPORTED AS REASONABLE, ALLOCABLE, OR
ALLOWABLE

Of the $24,727,672 in administrative costs reviewed, $24,325,053 was allowable for Medicare
reimbursement under the Part A contract. However, the remaining $402,619 was not. Of this
amount, $245,056 was unallowable for Medicare reimbursement because BCBSGA did not have
adequate policies and procedures to ensure that these costs were adequately supported and
allocated to the Medicare Part A contract in compliance with applicable Federal regulations and
CMS guidance. We set aside the remaining $157,563 for CMS adjudication because it consisted
of termination costs, which, under CMS guidance, should have been claimed on BCBSGA’s
termination cost vouchers.

Unapproved Bonus Payment

Contrary to 48 CFR § 31.205-6(f), BCBSGA paid one employee a bonus of $57,080, which did
not comply with provisions of the Medicare contract or CMS guidance requiring prior approval.
These costs were not allocable to the Medicare contract because they were not specifically
incurred for the contract, did not benefit the contract, and were not necessary to the overall
operation of the business.

Unsupported Salaries

BCBSGA provided sufficient documentation to support salaries for 2008. However, it did not
provide sufficient documentation to support salaries of $51,136, composed of $18,059 for 2007
and $33,077 for 2009. This lack of documentation is contrary to FAR part 31.201-2(d), which
states, “A contractor is responsible for accounting for costs appropriately and for maintaining
records, including supporting documentation, adequate to demonstrate that costs claimed have
been incurred, are allocable to the contract, and comply with applicable cost principles....”

Unallowable Impact Award Payment

Contrary to section 31.205-6(f) of the FAR (48 CFR § 31.205-6(f)) and BCBSGA’s policy, one
employee received bonus payments for two Level 2 Impact Awards within the same month. This
employee received one $652 bonus payment for performance in the Medicare business unit and
another $652 bonus payment for performance in the Information Technology department.
BCBSGA’s policy stated that an associate may receive no more than one Level 2 Impact Award
per month. Furthermore, section 31.205-6(f) of the FAR (48 CFR § 31.205-6(f)) requires that
awards adhere to a contractor’s established plan or policy. Accordingly, $652 was unallowable
for Federal reimbursement.




                                                  5

Unallowable Annual Incentive Program Reward Payments

Contrary to section 31.205-6(f) of the FAR (48 CFR § 31.205-6(f)) and BCBSGA’s annual
incentive program (AIP), BCBSGA paid a total of $7,358 to five employees in excess of the AIP
rewards limit based on erroneous and, therefore, unsupported allocations. BCBSGA charged the
entire AIP costs awarded to the associates to their current cost center instead of determining the
allocation for each business unit in which the associate was employed.

Understated Reductions to Fringe Benefit Costs

BCBSGA understated reductions to fringe benefit costs claimed on its FACPs by $128,830, as
follows:

   	 BCBSGA understated $10,972 that was attributable to unallowable SERP costs. Our
      calculations showed that the SERP reductions in 2007, 2008, and 2009 were understated
      by $2,085, $669, and $8,218, respectively. The understatements in 2007 and 2008
      resulted from BCBSGA’s minor calculation errors; however, BCBSGA did no calculation
      for 2009.

   	 BCBSGA understated $117,858 that was attributable to unallowable PRB costs. Our
      calculations showed that the PRB reductions in 2007 and 2008 were understated by
      $100,717 and $21,942, respectively. For 2009 the reduction was overstated by $4,801.
      The understatement in 2008 and overstatement in 2009 resulted from BCBSGA’s minor
      calculation errors; however, BCBSGA did no calculation for 2007.

Termination Costs

We set aside for CMS adjudication $157,563 incurred after May 4, 2009, that was incorrectly
included in BCBSGA’s 2009 FACP. These costs consisted of termination costs, which, under
CMS guidance, should have been claimed on BCBSGA’s termination cost vouchers. These costs
did not comply with provisions of the Medicare contract limiting expenditures to approved
budget authority or with CMS guidance requiring termination costs incurred for contract closeout
to be submitted on termination cost vouchers. Therefore, they were not allocable to the Part A
contract (48 CFR § 31.201-2(a)).

INADEQUATE POLICIES AND PROCEDURES

BCBSGA did not have adequate policies and procedures to ensure that these costs were
supported and allocated to the Medicare Part A contract in compliance with applicable Federal
regulations and CMS guidance.

RECOMMENDATIONS

We recommend that BCBSGA:




                                                6

   	 reduce direct costs claimed on its FACPs by $245,056,

   	 work with CMS to resolve $157,563 in termination costs incorrectly included in its 2009
      FACP, and

   	 strengthen its policies and procedures for maintaining documentation to support costs
      included on its FACPs.

BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC. COMMENTS

In comments on our draft report, BCBSGA agreed with most of our findings, except for those
related to the unapproved bonus payment and the understated reductions to fringe benefit costs.
BCBSGA stated that the bonus payment was made in good faith to the individual who oversaw
the Medicare operations at BCBSGA and that this individual was instrumental in sustaining
performance during the Medicare administrative contractor’s transition and winding up
operations. With regard to the reductions to fringe benefit costs, BCBSGA stated that the
proposed adjustment removes post retirement costs as determined through generally accepted
accounting principles and that actual paid claims had been incurred, which have not been factored
into the proposed adjustment. BCBSGA stated that it would pursue reimbursement for both
findings with CMS.

BCBSGA’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the basis of the unapproved bonus paid to one employee was not allowable
under the Part A contract in accordance with 48 CFR § 31.205-6(f). Furthermore, we maintain
that BCBSGA did not obtain CMS’s prior written approval for this bonus payment as required by
Exhibit 3, section 1.2, entitled Retention Bonuses of the Carrier/Intermediary Workload Closeout
Handbook.

With regard to the reductions to fringe benefit costs, BCBSGA did not provide with its comments
on the draft report additional documentation supporting that it had paid post retirement costs.
Therefore, we could not determine whether the post retirement costs in question had been
incurred, and we maintain that these costs were not allocable to Medicare.




                                               7

APPENDIXES 

                                                                                      Page 1 of 2


                        APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population of interest is employees’ Part A direct salaries and wages for a 2-week pay period
claimed on the Medicare Final Administrative Cost Proposal (FACP) for 2007 through 2009.

SAMPLING FRAME

   A. For 2007 through 2009, we obtained 3 Microsoft Excel files containing the individual
      employees’ pay period direct salary and wages that were charged to Medicare on the
      FACP. These worksheets included 11,576 rows with salary and wage related entries
      totaling $13,597,824. The 11,576 rows included multiple salary and wage related entries
      per employee each pay period. Furthermore, the $13,597,824 in salary and wages
      included miscellaneous accruals. Thus, the sampling frame required refinement to
      remove accruals, to consolidate the multiple entries per employee, and to determine the
      number of employee pay periods.

   B. To initially refine our sampling frame, we excluded 262 entries totaling $331,678 related
      to miscellaneous Part A direct salary accruals from the previous fiscal year. For 2007 we
      excluded 134 entries totaling $164,179. Also, for 2009 we excluded 128 entries totaling
      $167,499.

   C. After excluding the miscellaneous accruals, the refined sampling frame for 2007 through
      2009 included 11,314 salary-related entries totaling $13,266,146.

   D. We further refined the sampling frame by consolidating multiple entries for an employee
      during one pay period into one employee pay period entry to determine the aggregate
      number of employee pay periods. We did so by collapsing rows that had the same
      associate name, associate ID, and check number for each pay period ending date to obtain
      the gross hours and amount into one row representing “an employee pay period.” This
      resulted in a refined sampling frame of 6,359 “employee pay periods” totaling
      $13,266,146 in salary and wages for 2007 through 2009.

   E. Our last refinement of the sampling frame was to include only Part A direct salaries that
      were allowable and material. Thus, we reduced the previously determined 6,359
      employee pay periods totaling $13,266,146 by 789 employee pay periods relating to
      miscellaneous entries totaling $1,891,315 as follows:

           1.	 For 2007, we removed 61 employee pay periods relating to miscellaneous entries
               totaling $183,346 as follows:

                  a.	 19 employee pay periods from 2006 totaling $3,326,
                  b.	 15 employee pay periods less than $700 totaling $5,598 due to
                      immateriality,
                  c.	 1 “Impact Award” employee pay period totaling $733, and
                                                                                       Page 2 of 2


                  d.	 26 employee pay periods related to executive compensation totaling
                      $173,689.

              We then created a new Excel worksheet for 2007 including 2,336 “employee pay
              periods” totaling $4,486,579.

          2.	 For 2008, we removed 107 employee pay periods relating to miscellaneous entries
              totaling $226,333 as follows:

                  a.	 42 “Impact Award” employee pay periods totaling $19,720,
                  b.	 39 employee pay periods less than $700 totaling $18,318 due to
                      immateriality, and
                  c.	 26 employee pay periods related to executive compensation
                      totaling $188,295.

              We then created a new Excel worksheet for 2008 including 2,184 “employee pay
              periods” totaling $4,351,754.

          3.	 For 2009, we removed 621 employee pay periods relating to miscellaneous entries
              totaling $1,481,636 as follows:

                  a.	 1 employee pay period involving an employee’s accrued salary totaling
                      $33,896,
                  b.	 529 unallowable employee pay periods totaling $1,218,384 that was
                      already claimed on the termination cost vouchers for reimbursement,
                  c.	 45 “Impact Award” employee pay periods totaling $24,359,
                  d.	 25 employee pay periods less than $700 totaling $4,936 due to
                      immateriality,
                  e.	 1 adjusted entry employee pay period totaling $1,712, and
                  f.	 20 employee pay periods related to executive compensation totaling
                      $198,349.

              We then created a new Excel worksheet for 2009 including 1,050 “employee pay
              periods” totaling $2,536,498.

The remaining 5,570 “employee pay periods” totaling $11,374,831 for 2007 through 2009 will be
our sampling frame.

SAMPLE UNIT

The sample unit will be an “employee pay period.”
                                                               Page 1 of 2


 APPENDIX B: BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC.’S MEDICARE 

      PART A ADMINISTRATIVE COSTS CLAIMED FOR OCTOBER 1, 2006, 

                        THROUGH MAY 4, 2009





                       2007         2008          2009           Total
Salaries & Wages       $5,250,349    $4,975,412   $4,361,704   $14,587,465
Fringe Benefits         1,480,083     1,323,275      801,190     3,604,548
EDP Equipment              85,593        57,673       37,513       180,779
Subcontracts              793,748       812,655       42,764     1,649,167
Facilities or
Occupancy                459,567       448,065      337,004      1,244,636
Outside Professional
Services                 201,732       316,024      143,466        661,222
Telephone                 86,962        98,587       88,693        274,242
Postage                  726,836       726,087      647,638      2,100,561
Furniture &
Equipment                  13,165        12,514        7,199         32,878
Materials & Supplies       87,462        85,076       20,021        192,559
Travel                     62,707       120,734       43,913        227,354
Miscellaneous             575,287       532,213      230,210      1,337,710
Credits                 (540,188)     (486,190)    (339,071)    (1,365,449)
Total Direct Costs     $9,283,303    $9,022,125   $6,422,244   $24,727,672
                                                                           Page 2 of 2


 APPENDIX C: RESULTS OF REVIEW OF BLUE CROSS AND BLUE SHIELD OF 

GEORGIA, INC.’S MEDICARE PART A ADMINISTRATIVE COSTS CLAIMED FOR 

                 OCTOBER 1, 2006, THROUGH MAY 4, 2009


                         Total          Total        Total Set Aside for     Total
Year    Total Claimed   Reviewed      Unallowable    CMS Adjudication      Allowable

2007       $9,283,303    $9,283,303       $122,383                   $0 $9,160,920
2008        9,022,125     9,022,125         28,447                    0   8,993,678
2009        6,422,244     6,422,244         94,226              157,563   6,170,455 
Total     $24,727,672   $24,727,672       $245,056             $157,563 $24,325,053
                                                                                                                Page 10f2



APPENDIX D: BLUE CROSS AND BLUE SHIELD OF GEORGIA, INC. COMMENTS



      ' National c~vernmeni
    ",.L.
      JIIIf   seMees.
        A CMS C'mtr~cted Agen t                                                      Medicare
        N~ t i o n a l   Gove rnment 5crviCl$, Inc.
        www.NCSMcdiC<lrc.(om



       July 21, 2011

       Mr. Joh n T. Drake, Sr.
       Acting Regional Inspector General for Audit Services
       Offi ce of In sp ector Gen eral, Office of Aud it Servi ces, Region IV
       61 Forsy th Street, SW, Su ite 3T41
       Atlanta, Georgia 30303

       Referen ce : Report Number A-04-10-00068 - Review of Blu e Cross Blue Sh ield of Georgia' s M edi care
       Final Administrative Cost Proposals for the Period October I, 2006 Through May 4, 2009

        Dear Mr. Drake:

        We have received the aforemen tioned draft audit report reference d above and thank you for the
        opportunity to respond.

        W e concur with the findings and re commendations noted in the rep ort with the following exception s:

        Un approved Bonu s Paym ent

        We d o not concur with the auditor's conclu sion on unapproved bonu s paym ents. The paym ent was
        m ad e in good fa ith to the individual that oversaw Medicare op erations at Blue Cross Blue Shield of
        Georgia. This individual was instrumental for sustaining perfonnance during the MAC transition and
        ultim ately windin g up op erations of the Plan . We will pursue reimbursem ent with CMS.

       lTnderstated Reductions to Fringe Benefit Costs

        We d o not concur with the auditor's conclu sion on post retirem ent benefit costs. The prop ose d
        adjustment removes post retirement costs as detennined through generally accepted accounting
        principles. Actual p aid claims h ave be en incurred whi ch h ave not been factored into the proposed
        adjustment. We w ill pu rsue reimbursem ent with CMS.




                                                                                                  CA#S/
                                                                                                          Page 2 of2




Jul y 21,2tl11
Pagt· lof 2

Termination Cp;;j::

We concur ,,,jlh yo ur comment for setting these costs as ide for eMS adjudi cati o n. TIICSC costs we re
incurred for wind ing down operations of thc Plan; and al eMS' direction were billed through th e
FACP process vs. termination vo uche rs. Aside from the invoicing instructions, these costs ,,'cre
al lowable and allocable costs associ ai L>(1 w ith th eco nlrad. We wil l pursue rei mbu rsement w ith e MS.

We apprecia te Ihe opportunity to res pond to this d raft report. If yOu have any fur ther ques tions, I can
be reached aI414-459-5606 or via e mail at todd.reiger@wellpoi nt.com.

Sincerely,
                           ~<ip:d..,r <rl'w . ~
                           llPt '.,. !<ill W.,.,.........,. ......
                          ~"""~"                   ......,...fi.,...,e
                          .. ..,;I - <~ .... Io>oO-< ~'0V5
                           Da:20, UlI.211l21oS9 U;OO

Todd W. RL>iger, CPA
Chief rin ancial Offi cer, Medicare Operations

cc:              Sand y Miller
                 Michael Kapp
                 Jeff Hannah
                 Wendy Perkins
                 Eri..: Bowen - DIG
                 Osvaldo Ord o nez- o rG
